I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

S MI T H, E D W A R D L E E
P etiti o n er
vs.

N o:

2 0- 8 1 4 6

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
J u n e 0 1, 2 0 2 1
c c:
E
P
F
P
S

D W A R D L E E S MI T H
RI S O N E R N O. 0 8 5 0 6- 0 4 1
CI S A N D S T O N E U NI T C
O B O X 1000
A N D S T O N E, M N 5 5 0 7 2

